     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL




       AUDIT OF GRANTEE'S
  PRIVATE ATTORNEY INVOLVEMENT
             PROGRAM




Grantee: LEGAL ASSISTANCE FOUNDATION
           OF METROPOLITAN CHICAGO

           Recipient No. 514020
              Report No. AU05-03

                February 2005

               ~n'cw.aig.Isc.gov
                                    TABLE OF CONTENTS

                                                                                                               Page

INTRODUCTION ...........................................................................................1

BACKGROUND            ............................................................................................. 1
OBJECTIVES. SCOPE and METHODOLOGY .................................................. 2

RESULTS OF AUDIT ...................................................................................... 4

        OVERSIGHT AND FOLLOW-UP ............................................................ 4
        RECOMMENDATION .............................................................................. 4

SUMMARY OF GRANTEE COMMENTS IN DRAFT REPORT ........................... 5

APPENDIX I .Grantee Comments                      ...............................................................I .I
APPENDIX I1 .OIG On-Site Audit Team .......................................................I .2
                               INTRODUCTION


The Legal Services Corporation (LSC), Office of Inspector General (OIG)
conducted this audit to evaluate Legal Assistance Foundation of Metropolitan
Chicago's (LAFMC) compliance with the Private Attorney Involvement (PAI)
regulation (45 CFR, Part 1614). This regulation requires the grantee to spend an
amount equal to at least 12.5 percent of its basic field grant to involve private
attorneys in providing legal services to clients. Grantees are to provide LSC
statistics on the private attorneys involved and the programs must operate
efficiently and effectively.



                                   BACKGROUND

LAFMC is a non-profit corporation established to provide legal services to
indigent persons who meet LSC-eligibility requirements.            LAFMC is
headquartered in Chicago, Illinois at 111 W. Jackson Blvd, with four branch
offices in Chicago as well as additional branch offices in Evanston and South
Holland, respectively.

LAFMC reported total staffing of 157 employees as of December 31, 2003-- 76
attorneys, 28 paralegals and 53 other staff. LAFMC received an LSC basic field
grant of $6,205,347 for 2003. LAFMC's total funding for 2003 was $1 1,460,916.
The PA1 program includes a lower than average number of cases, but a higher
than average percentage of extended service cases. The PA1 cases include
family law (59%) and income maintenance (22%) as well as lesser percentages
of housing, health and bankruptcy cases. Legal services are provided through
pro bono attorneys and reduced fee contractors. Staff attorneys provide co-
counseling assistance to PA1 attorneys. In addition, there are pro se clinics
staffed by private attorneys.

LAFMC's PA1 program is coordinated by an attorney, who also directs training
and labor relations. This coordinator directs training for PA1 attorneys and refers
PA1 attorneys to LAFMC program managers (i.e. family law, income
maintenance, employment, and housing) to work directly with clients or to co-
counsel with staff attorneys. Of the 728 closed PA1 cases for 2003, 646 were
closed at the headquarters office. The remaining cases were scattered among
the six other offices with no one ofice closing more than 34 cases.

The LAFMC Executive Director (ED) and PA1 Coordinator acknowledged the
relatively low volume of PA1 cases as a percentage of total cases (3.3% versus
14.5% national average for 2003). In part, this may be explained by the higher
than average percentage of extended service cases for PA1 (53% versus the
national average for 2003 of 20%). Both the ED and PA1 Coordinator reported
that the large number of legal service providers in Chicago competing for pro
bono services created problems for LAFMC in meeting the PA1 requirements.
LAFMC established in 2003 a pro se clinic for uncontested divorces utilizing PA1
attorneys to increase the volume of legal services to LSC-eligible clients.

In 2003, LAFMC reported expenditures of $719,738 ($697,642 in LSC funds) to
meet the PA1 requirement. This amounted to 11.8% of the modified annualized
basic field grant of $6,084,769 (to convert the calendar year grant awards to
LAFMC1s July I-June 30 fiscal year, the grantee used the average of grant
awards for calendar years 2002 and 2003). LAFMC obtained a waiver from the
12.5% PA1 requirement for 2003.

Of the total PA1 expenditures, LAFMC reported $509,002 for staff salaries and
benefits, and $210,736 for nonpersonnel costs. The nonpersonnel costs
consisted of allocations for indirect charges such as rent, equipment and office
expenses ($155,192) and expenditures charged directly to PA1 for payments to
reduced-fee contract attorneys ($55,544).



             OBJECTIVES, SCOPE AND METHODOLOGY

The purpose of the audit was to evaluate compliance with requirements
established in 45 CFR 1614, relating to private attorney involvement (PAI),
including effectiveness and efficiency of PA1 programs (Sec. 1614.1(c)). The on-
site portion of this audit was performed from October 12, 2004 to October 14,
2004. This audit is part of a series of audits of PA1 that the OIG will conduct at a
representative number of LSC grantees to identify systemic weaknesses as well
as "best practices." The audit was performed in accordance with Generally
Accepted Government Audit Standards.

The audit covered the period from January 1,2003, through December 31, 2003,
for statistical data and July 1, 2002 through June 30, 2003 for accounting data.
The OIG reviewed grant applications, audited financial statements and statistical
data reported. The OIG interviewed the Executive Director (ED), the Director for
Training, Labor Relations and PA1 and the Controller as well as supervisory and
staff attorneys who represented the following substantive law units at the
headquarters office: housing law, health law, public benefits hotline, seniors
project, family law, central intake and bankruptcy law. In addition, the OIG
interviewed the managing attorney for the Dearborn Branch office as well as the
supervisory attorney at the NW Chicago Branch Office. The OIG performed the
following specific tests:
1. Planning - Reviewed and evaluated the grant application for 2003.
   lnterviewed Office of Performance and Planning and the Office of
   Compliance and Enforcement staffs to obtain background on prior reviews
   and evaluations. Interviewed the ED and PA1 Coordinator to evaluate
   planning for prioritizing legal needs and for obtaining feedback from
   community organizations and clients on PAI legal services provided.

2. Statistics - Traced statistical reports (Case Statistical Reports) to closed-
   case listings for PA1 cases. Tested samples of cases for each of the two
   offices where PA1 cases were reported to verify existence, LSC eligibility,
   type of case and level of service. Tested the accuracy of data reported on
   the J-l Report-Components of PA1 by tracing the data to supporting
   documentation.

3. Accounting - Reviewed and evaluated the grantees audited financial
   statements for 2003. Tested a sample of direct PA1 disbursements, tracing
   expenditures to source documentation submitted by vendors and
   evaluating relevance to the PA1 program. Compared a listing of individuals
   who had terminated employment with the grantee in the past two years to
   verify compliance with the prohibition on paying these former employees,
   including reduced-fee contracts for PAI. Evaluated the reasonableness of
   time charged to PA1 by grantee employees, related indirect costs and
   internal controls over accounting for PAI.

4. Oversight - Reviewed self-inspections for 2003. Tested samples of open
   andior recently-closed cases to evaluate the timeliness of follow-up and
   case closure.

5. Productivity - Evaluated statistical and accounting data to assess the
   productivity of the grantee's overall PA1 program by comparing this data to
   national averages. Compared productivity between the PA1 programs at
   the grantee's offices.
                            RESULTS OF AUDIT

The grantee substantially complied with most of the requirements of 45 CFR,
Part 1614. Some improvement is needed in providing adequate oversight and
follow-up for cases referred to private attorneys (§1614.3(d) (3)). This finding is
discussed in detail below.


OVERSIGHT AND FOLLOW-UP

The grantee did not provide adequate oversight or follow-up of cases referred to
private attorneys. This occurred because the grantee had no written procedures
for follow-up on PA1 cases. As a result, controls were not in place to ensure
prompt disposition of PA1 cases as well as accurate and complete statistical
reports.

The OIG selected a judgmental sample of thirty-seven of the oldest open cases
from three LAFMC offices (Headquarters, Northwest, Dearborn). The sample
included cases from a variety of substantive sections-family, housing, health,
bankruptcy and income maintenance. We found seventeen discrepancies. Of
the discrepancies; seven cases should have been closed, four were staff cases
misclassified as PA1 cases, four were not LSC-eligible cases (or LSC funded)
and two cases had insufficient documentation of follow-up.


RECOMMENDATION

We recommend that the Executive Director

I.     Establish procedures requiring grantee staff to follow up with private
attorneys on the status of PA1 cases at least quarterly, including documentation
of timely follow-up.
         SUMMARY OF GRANTEE COMMENTS ON DRAFT REPORT

GRANTEE COMMENT - OVERSIGHT AND FOLLOW-UP

      The grantee stated that they agreed to implement the recommendation.
The grantee also provided written procedures now in use that specify how
grantee staff is to follow up with private attorneys on the status of PA1 cases.
OIG has reviewed these procedures and determined them sufficient to close the
recommendation. Finding No. 1 is therefore closed.
                                                                                                                   APPENDIX I
                                                                                                                111 West     Jackson       Houieva~u
                                                                                                                Suite 300
                                                                                                                C h i c a g o , Illinois 6 0 6 0 4 - 3 5 0 2
                                                                                                                3 1 2 . 3 4 1 . 1 0 7 0 Phone
                                                                                                                3 1 2 . 3 4 1 . 1 0 4 1 Fax
                                                                                                                3 1 2 . 4 3 1 . 1 2 0 6 TDD
                                                                                                            I   www.1afchicago.org


                                                                          January 28,2005

Sheldon H . Roodman
Fxecuriw Director
                                    Ronald D. Menryman
General Intake Offices
                                    .Acting Assistant Inspector General
CENTRAL INTAKE
11 1 West Jackson Blvd.
Chicago, IL 60604
                                     for Audit                                        ,
                                                                                      I        FEB      I       2005
(312) 341.1070
m D : (312) 431-1206
                                    LEGAL SERVICES CORPORATION
FAX. (312) 341-1041                 3333 K Street, NW 3rd F1.
                                                                                                                    GENERAL
NORTH SUBURBAN OFFICE
828 Davis Street. Rm. 201
Evanston, 1L 6 0 2 0 1 4 8 9
                                    Washington, DC 20007-3522                         - OFFICE GF !i.!S?iCTGR
(847) 475-3703
FAX: (847) 475-3033
NOR-           OFFICE                        RE: PAI Audit
1279 N. Milwaukee Ave., a407
Chicago. L 60622-2253                             Legal Assistance Foundation of Metropolitan Chicago
(773) 572-3200
FAX: (7731 572-3201                               Recipient No. 5 14020
SOIJTH SIDE OFFICE
10 West 35th Street
Chicago, IL 60616-3717
(312) 949-5390                       Dear Mr. Merryman:
FAX. (312) 949-0481
SOUTH SUBURBAN OFFICE
900 East 162nd Street
South Holland. L 60473-2471
                                     This letter is in response to the draft report of the PA1 audit of the Legal Assistance
(708) 271-4950
FAX: (708) 5964108
                                     Foundation of Metropolitan Chicago (LAF) dated January 5,2005. We appreciate the
WEST SIDE OFFICE
3333 West AKbington
                                     thoughtfulness and professionalism with which Mr Gellman and Mr. Ortunio conducted
Chicago. IL 60624-4102
(773) 321-7900
                                     this audit.
FAX: (773) 6384036
Residents of West Suburban
Cook Counry should Call
this number.                         The OIG made one recommendation:
Special Projects
Chicago Seniors Project
                                                   Establish procedures requiring grantee staff to follow up with
children's Law                                     private attorneys on the status of PAT cases at least quarterly,
Crime Victim Assistance
(773) 638-41 11                                    including documentation of timely follow-up.
Disability l a w
Family Law/Project Safe
(312) 431-2255
Elderly
                                     We agree to implement that recommendation. In fact by the time the OIG visited LAF
HN/AIDS
(312) 347-8309
                                     we had already began to change the procedures to include this requirement. (See f[ B. 9.
Home Ownership Preservation
Housing law for Seniors
                                     of the attached "LAFMC Referral and Case Management Procedures for PA1 Blast E-
Illinois Migrant Legal Assistance    mail Cases April 2004"which was given to OIG staff at the time of their visit.) All LAF
(312) 341-9180
Legal Center for immigrants
(312) 341-9617
                                     PA1 projects will have the following language included in each project's procedures:
Long term Care Ombudsman
  Suburban Cook
(888) 401-8200                                     If the volunteer attorney takes on the entire case and LAF does not co-
Private Attorney Involvement
Rojea Safe/Domestic Violence                       counsel, the LAF attorney will keep track of the volunteer attorney's
Pro-Se Divom Clinic
(312) 431-2101                                     work on the case by checking with that attorney at regular intervals, no
Public Benefits Hocline
(888) 893-5327
                                                   less than every ninety (90) days, regarding the case's status. The LAF
SSI Advocacy hojm
(312) 427-5200
                                                   attorney will make a note in Kemps of each of these status-checking
Workers' Rights Advocacy
  Projecf
                                                   contacts with the private attorney.




                                    Equal Access to J u s t i c e
                                                                      1-1
Mr. Ronald D. Merryman
January 28, 2 0 0 5
Page 2


              h exceptional cases where the LAF attorney knows that the referred case will n o t
              involve any activity for prolonged periods in excess of ninety days, the LAF attorney
              will not have to check on the case status with the private attorney as indicated above.
              In order to do so, the LAF attorney must first get the permission of the PAI supervisory
              attomey, and note that fact in Kemps including the date, not to exceed nine months,
              which the LAF attorney will check the case status.

Again thank you to your staff for their insights and suggestions regarding our PAI projects. If you have
any questions, please feel fkee to contact us.

                                     Sincerely,



                               /     Sheldon Roodman       L
                                     Executive Director




                                     Richard Jay ~ e s d
                                     PAI Project Supervisor


SR:RJH:tn
Attachment
                                  LAFMC Referral and
                             Case Management Procedures
                              for PA1 Blast E-mail Cases
                                     April, 2004

A.   Requirements:

     1.    All cases referred to the PAI project must fall within LAF7scase acceptance
           guidelines.

     2.    All cases will require involvement by the neighborhood attorney who refers the
           case to the PAT Project. This involvement can entail either acting as co-counsel
           with the volunteer attorney, or being available to answer the volunteer attorney's
           questions.

B.   Procedures

     1.    LAF attorneys will send an e-mail to Federico Guanan with a description of the
           case, and the Kemps number. The actual file will not be sent to Federico.

     2.    The same day that the e-mail arrives, Federico will respond acknowledging its
           receipt.

     3.    Federico will prepare a brief description of the case, including the facts, pending
           court dates, and a date that a response is requested fiom volunteers.

           If there are any court dates or a filing deadlines within less than two weeks &om
           the date the case is sent out on the blast e-mail, the LAF attorney will have t o plan
           on covering them, unless other arrangements can be made with a volunteer
           attorney.

     4.   Federico will e-mail a copy of the case description to the referring LAF attorney
          for his or her review.

     5.   Once the case description is agreed upon, Federiw will send the case out via the
          Blast e-mail to the pro bono panel and to the refening LAF attorney.

     6.   When an attorney volunteers to work on the case, Federico will respond to the
          attorney that their e-mail is being forward to the referring LAF attorney, and will
          include the name, phone number and e-mail address of that LAF attorney. The
          LAF attorney will be sent a copy of this e-mail. It will then be the responsibility of
          the LAF attorney to get in contact with the volunteer attorney to discuss the
          volunteer's involvement in the case.

     7.   After the volunteer attorney has agreed to work on the case, the LAF attorney will
      change the status of the case to " P on page 1 of Kemps to reflect that the case is a
      PAI case, and will insert the name of the volunteer attorney on page 3 of Kemps.

8.    T h e LAF attorney will notlfl Federico if the volunteer attorney will work on the
      case as co-counsel with LAF, or if the volunteer attorney will take on the entire
      case without co-counseling with LAF.

9.    If the volunteer attorney takes on the entire case and LAF does not co-counsel, the
      LAF attorney will keep track of the volunteer attorney's work on the case by
      checking with that attorney at regular intervals, no less than every ninety (90) days,
      regarding the case's status. The LAF attorney will make a note in Kemps of each
      of these status-checking contacts with the private attorney.

      I n exceptional cases where the LAF attorney knows that the referred case will not
      involve any activity for prolonged periods in excess of ninety days, the LAF
      attorney will not have to check on the case status with the private attorney as
      indicated above. In order to do so,the LAF attorney must first get the permission
      of the PAT supervisory attorney, and note that fact in Kemps.

10.   Once the case is resolved, the LAF attorney wiU update and close the client's
      Kemps. The LA? attorney shall get copies of any final orders or dispositions for
      LAF's file in order to document the appropriate closing code.

11.   The LAF attorney will attribute all of his or her time spent working on a case to
      PAI, and not just the time spent speaking, or working, with a volunteer attorney.
